            Office of Inspector General




March 22, 2006

AYODEJI O. SANYAOLU
PLANT MANAGER - J.T. WEEKER (CHICAGO)
 INTERNATIONAL SERVICE CENTER

SUBJECT: Audit Report – J.T. Weeker (Chicago) International Service Center –
         Inbound International Mail (Report Number FT-AR-06-013)

This report presents an issue concerning internal controls for billing inbound
international mail at the J.T. Weeker (Chicago) International Service Center. We
identified this issue during our annual audit of the fiscal year (FY) 2005 U.S. Postal
Service Financial Statements – St. Louis Information Technology and Accounting
Service Center (IT/ASC) (Project Number 05BM002FT005).

                                               Background

International Service Centers (ISCs) distribute and dispatch international mail received
from a designated service area and headed to specific foreign countries or to
international exchange offices. There are currently five ISCs: New York, Miami,
Chicago, Los Angeles, and San Francisco. Postal Service personnel input inbound
Letter Class and Parcel Post mail volumes into a web-based application and scan
inbound Express Mail volumes into the Military and International Dispatch Accounting
System (MIDAS).1 The ISCs rely on these volumes to bill foreign postal administrations
and to support international revenue and receivables in the General Ledger.
Additionally, inbound mail volumes are scanned into the Receipt Verification System
(RVS) at the ISC for tracking.

                             Objectives, Scope, and Methodology

The objectives of this portion of the audit were to determine whether inbound
international mail volumes were accurate and internal controls for recording inbound
international mail were adequate at the J.T. Weeker (Chicago) ISC. To accomplish our
objectives, we reviewed inbound mail documents for four classes of inbound




1
  MIDAS is used to record inbound international Express Mail volumes. This information is used to populate
international accounting data files and, ultimately, to record revenues.
J.T. Weeker (Chicago) International Service Center –                                                FT-AR-06-013
 Inbound International Mail


international mail at the J.T. Weeker (Chicago) ISC for October 2004 through
February 2005: Express Mail, Coventry (upgraded) Parcels,2 Parcel Post, and letter
class. We judgmentally selected the J.T. Weeker (Chicago) ISC based on the length of
time since our last review. For each class of mail reviewed, we statistically sampled
inbound mail volumes and traced them to corresponding mail manifests and/or other
supporting documentation. Based on our analysis of the sampled items for Parcel Post,
we judgmentally expanded our review to include Parcel Post inbound mail from
Frankfurt, Germany, and Vienna,3 Austria, from calendar year (CY) 2004 through late
June 2005.4

We conducted this audit from March 2005 through March 2006 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. We discussed our
observations and conclusions with management officials and included their comments
where appropriate.

We relied on computer-generated data from MIDAS and the web application. We
performed specific transaction tests on these systems’ data. For example, we traced
selected inbound international mail volume information to supporting source records.

                                        Prior Audit Coverage
In our FY 2002 financial statements audit,5 we reported discrepancies between
information entered into MIDAS and manifests of inbound international Express Mail
and Coventry (upgraded) Parcels. Management agreed with our finding and stated they
developed RVS, along with a technical users manual, to improve accounting for inbound
international mail.

In our FY 2003 financial statements audit,6 we reported the Postal Service relied on
information received from the Canada Post Corporation to record revenues. The Postal
Service stated that RVS would resolve this issue. Because the Postal Service had not
fully implemented RVS at the time of our report, we agreed not to provide any
recommendations but we will continue to monitor the issue.




2
  Coventry (upgraded) Parcel service is a special class of Parcel Post covered by bilateral agreement between the
Postal Service and the United Kingdom postal administration.
3
  Parcel Post supporting documentation notes Wien, Austria, which translates to Vienna, Austria.
4
  For CY 2005, we reviewed transactions completed at the time of our audit. For Vienna, through June 28, 2005; and
for Frankfurt, through June 9, 2005.
5
  Fiscal Year 2002 Postal Service Financial Statements Audit – St. Louis Information Technology and Accounting
Service Center (Report Number FT-AR-03-008, dated January 30, 2003).
6
  Internal Controls Over the Recording and Reporting of Inbound Mail Volumes From Canada (Report Number
FT-AR-04-002, dated December 2, 2003).




                                                        2
J.T. Weeker (Chicago) International Service Center –                                                    FT-AR-06-013
 Inbound International Mail


                                                    Results
Except for letter class mail, inbound international mail volumes were not always
accurate and internal controls for recording inbound international mail at the
J.T. Weeker (Chicago) ISC needed strengthening. Specifically, mail volumes on
manifests7 did not support billing and revenue data in the General Ledger for inbound
international Express Mail and Parcel Post. For Coventry (upgraded) Parcels, the
Postal Service did not always request missing source documents. In addition, the
Postal Service did not have a process in place to monitor volume data entered for
inbound international mail.

For inbound international Express Mail, we identified discrepancies between manifests
and billing information in 36 of 135 sampled items (27 percent). ISC personnel could
not support their explanations for the 26 items where discrepancies existed between
gross weight and/or the number of pieces and supporting documentation because the
billing information is based on scanned data. In addition, ISC personnel could not
provide supporting documentation for the remaining 10 sampled items.

For the 57 inbound Coventry (upgraded) Parcels sampled, we identified nine where
initial source documentation was not available. In eight of those instances, the Postal
Service did not request the missing documentation from the United Kingdom. When the
Parcel Post web application indicates that no documentation has been received, the
inbound records clerk is required to request the missing source documents.8 However,
the clerk did not request the information at the time of our review.

For inbound international Parcel Post, we noted discrepancies between supporting
documentation and billing information in 13 of 75 sampled items (17 percent). This
occurred because the inbound records clerk entered incorrect data into the Parcel Post
web application. Eight of the discrepancies were for inbound mail from Frankfurt,
Germany, and Vienna, Austria. For these locations, the clerk consistently entered the
number of bags rather than the number of pieces into the web application. Our
expanded review of inbound mail from Frankfurt and Vienna through June 2005
disclosed this practice continued.




7
  Inbound international mail documents supporting weights and pieces of mail received to support billings to foreign
postal administrations. These documents are filed on-site at ISCs, international exchange offices, or international
records units.
8
  Handbook T-5, International Mail Operations, Chapter 4 – Irregularities, Section 46 – Verification Notes, dated
October 2005.




                                                          3
J.T. Weeker (Chicago) International Service Center –                                                      FT-AR-06-013
 Inbound International Mail


The table below summarizes the projected error rates:

                        Projected Error Rate by Mail Type
             Type                  Point Estimate                                           Error Limits9
Express Mail                          26.67%                                              20.44 to 32.90%
Coventry (upgraded) Parcels           14.04%                                               8.64 to 19.43%
Parcel Post                           17.33%                                              10.22 to 24.44%
See Appendix A for the statistical analysis of our review of inbound international mail at the J.T. Weeker (Chicago)
ISC.


In addition to incorrect billings to foreign postal administrations, inaccurate mail volume
data can result in misstated revenues and receivables in the General Ledger. Also, the
Postal Service could incur costs for researching and resolving discrepancies, and
payment for postal services rendered could be delayed.

Postal Service personnel took corrective action for the Coventry (upgraded) Parcels by
requesting the missing supporting documentation. For Parcel Post, the Postal Service
corrected the mail volume discrepancies identified for Frankfurt, Germany, and Vienna,
Austria, for CYs 2004 and 2005. As a result of the corrections for CY 2004, the
International Accounting Branch generated supplemental billings to the foreign postal
administrations for Austria and Germany totaling $109,968. For CY 2005, corrections to
inbound mail volumes resulted in additional billings to Germany10 totaling $37,761.11
We will continue to monitor this area in the future as part of our annual financial
statements audit.

Appendix B presents information on underbilled amounts for CY 2004 and corrections to
billed amounts for CY 2005 for Germany. We will report the supplemental billed amount
of $147,72912 as potential additional revenue in our Semiannual Report to Congress.

Recommendations

We recommend the plant manager, J.T. Weeker (Chicago) International Service Center:

1. Reiterate the requirement to request missing source documents for Coventry
   (upgraded) Parcels.

2. Implement a procedure to continuously monitor the reliability of inbound international
   mail volume data used to support billings to include manual and scanned data.


9
  Error limits reported are for a 90 percent confidence level.
10
   We were unable to calculate additional amounts billed to Vienna, Austria, for CY 2005 because Postal Service
personnel corrected mail volumes before initial mail volume data was captured.
11
   Billing for Parcel Post is 6 months after the close of the quarter. For example, the quarter ending in March will be
billed at the end of September.
12
   This amount represents $109,968.35 for CY 2004 Austria and Germany Inbound Errors and $37,760.91 for
CY 2005 Germany Inbound Errors.




                                                            4
J.T. Weeker (Chicago) International Service Center –                         FT-AR-06-013
 Inbound International Mail


Management’s Comments

Management agreed with the recommendations and our $147,729 in potential additional
revenue. Management reassigned and trained new personnel and reinforced the need
to request missing documents. Management completed the reassignment and training
by August 2005.

Beginning in July 2005, the unit supervisor also began monitoring input from the
inbound mail documents to ensure accuracy. Additionally, St. Louis Integrated
Business Systems Solutions Center personnel are developing a program that will
compare data and generate an exception report that they will provide to the ISCs to
allow them to investigate differences. Management’s comments, in their entirety, are
included in Appendix C of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendations and actions taken or
planned should correct the issues identified in the finding. We will follow up on these
issues as part of our future Financial Statements work.

Management did not provide a target date for completion of the program that will
compare data and generate an exception report. However, they subsequently advised
that it is part of a larger development effort scheduled to be completed in June 2006.

The U.S. Postal Service Office of Inspector General (OIG) considers recommendation 2
significant, and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective action(s) are completed. This
recommendation should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Siewert, director,
Financial Statements, or me at (703) 248-2300.

    E-Signed by John Cihota
 ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments




                                                       5
J.T. Weeker (Chicago) International Service Center –       FT-AR-06-013
 Inbound International Mail


cc: Lynn Malcolm
    Vincent H. DeVito, Jr.
    Jon T. Stratton
    Elizabeth L. Novillis
    Margaret A. Weir
    Steven R. Phelps




                                                       6
J.T. Weeker (Chicago) International Service Center –                         FT-AR-06-013
 Inbound International Mail


                                            APPENDIX A

     STATISTICAL SAMPLING AND PROJECTIONS FOR THE AUDIT OF
            FY 2005 INTERNATIONAL ACCOUNTING BRANCH


Purpose of the Sampling

One of the objectives of this audit was to determine if internal controls for recording
inbound international mail were adequate at the J.T. Weeker (Chicago) ISC. In support
of this objective, the audit team employed a stratified sample to review inbound mail
supporting documents and billing information for four classes of inbound international
mail. The sample design allows separate statistical projections of the number of errors
for each of four mail types.

Definition of the Audit Universe

The audit universe consists of 18,614 inbound international mail records at the Chicago
Records Unit for the period October 1, 2004, to February 28, 2005. These mail records
were of four mail types:

       •   Letter class (CN31), 8,561 records
       •   Parcel Post (CP86), 2,155 records
       •   Express Mail (CN38 (code 33)), 7,784 records
       •   Coventry (upgraded) Parcels (CN38 (code 35)), 114 records

The Computer Assisted Assessment Team obtained the audit universe from the
International Accounting Branch System database in Minneapolis.

Sample Design and Modifications

To ensure we could make separate projections for each mail type, we determined the
sample sizes separately for each mail type.

For the letter class type and Parcel Post mail, we expected very low error rates (near
0 percent), based on results from the FY 2002 audit. We used a 5 percent tolerable
error rate as recommended in the Government Accountability Office Financial Audit
Manual for compliance testing in financial-related audits. We calculated sample sizes of
130 letter class records and 75 Parcel Post records to provide one-side confidence
intervals with a 10 percent risk of overreliance (Beta Risk).13



13
     Cumulative binomial distribution.




                                                       7
J.T. Weeker (Chicago) International Service Center –                               FT-AR-06-013
 Inbound International Mail


For mail in the Express Mail stratum, we expected a considerably higher error rate than
that for the two mail types above, based on results from the same FY 2002 audit.
Assuming a 50 percent error rate, a desired 90 percent confidence level, and a desired
precision of +/- 7percent, we calculated a sample size of 135 records for this mail type.

For Coventry (upgraded) Parcel mail records, we expected a moderate error rate based
on prior audit results. We used systematic sampling because of the very low number of
records for this mail type in the audit universe. With the skip interval at two, we selected
a sample of 57 Coventry (upgraded) Parcel records.

Statistical Projections of the Sample Results

Based on the sample results, we summarized the projected results regarding the
different mail types in the table below. Note that for the Parcel Post mail type, the
observed error rate greatly exceeded that expected. The error rate is also larger than
the tolerable rate for use of the binomial methodology. Therefore, we evaluated the
sample results using the normal approximation method with a two-sided confidence
interval.




                                                           Point Estimate Error Limits
                         Audit                             (Projected     (90 percent
Mail Type                Universe            Sample        Error Rate)    confidence level)

Letter Class                                                                Upper error limit
(CN31)                   8,561               130           198 (2.31%)      = 341 (3.99%)

                                                                            1,591 to 2,561
Express Mail             7,784               135           2,076 (26.67%)   (20.44% to
(CN38 (code 33))                                                            32.90%)
Coventry
(upgraded)
Parcels (CN38                                                               10 to 22 (8.64% to
(code 35))               114                 57            16 (14.04%)      19.43%)

Parcel Post                                                                 220 to 527
(CP86)                   2,155               75            374 (17.33%)     (10.22% to
                                                                            24.44%)




                                                       8
    J.T. Weeker (Chicago) International Service Center –                                                  FT-AR-06-013
     Inbound International Mail


                                                           APPENDIX B
                                    CY 2004 Austria and Germany Inbound Errors*

   Billing            Austria      Germany            Total         Billing         Austria      Germany          Total       Grand Total


Pieces                      956         17,306                      Gross Weight       119.6           893.4

Parcel Post                                                         Parcel Post
Rate                       4.00           4.00                      Rate                 1.65           1.65

SDRs***                3,824.00      69,224.00       73,048.00      SDRs***           197.34        1,474.11      1,671.45      74,719.45
SDR                                                                 SDR
Conversion                                                          Conversion
9/12/05                1.47175        1.47175                       9/12/05          1.47175        1.47175

Dollars               $5,627.97   $101,880.42     $107,508.39       Dollars         $ 290.44     $ 2,169.52      $ 2,459.96   $109,968.35

                                            CY 2005 Germany Inbound Errors**

   Billing                         Germany            Total         Billing                      Germany          Total       Grand Total


Pieces                                   7,167                      Gross Weight
(Difference)                                                        (Difference)                     (2,596)

Parcel Post                                                         Parcel Post
Rate                                      4.25                      Rate                               1.85

SDRs***                              30,459.75       30,459.75      SDRs***                       (4,802.60)     (4,802.60)     25,657.15
SDR                                                                 SDR
Conversion                                                          Conversion
9/12/05                               1.47175                       9/12/05                        1.47175

Dollars                           $ 44,829.14     $ 44,829.14       Dollars                      ($7,068.23)    ($7,068.23)   $ 37,760.91


* As calculated by the St. Louis International Accounting Branch.
** Using differences after correction for inbound mail volumes from Frankfurt, Germany, for January through June 2005.
                                                 Pieces       Weight

Prior to Correction                                2,785         46,184

After Correction                                   9,952         43,588
Difference                                         7,167         (2,596)
*** Special Drawing Rights monetary unit designed by International Monetary Fund and used by the Universal Postal Union.




                                                                       9
J.T. Weeker (Chicago) International Service Center –        FT-AR-06-013
 Inbound International Mail


                   APPENDIX C. MANAGEMENT’S COMMENTS




                                                       11
J.T. Weeker (Chicago) International Service Center –        FT-AR-06-013
 Inbound International Mail




                                                       12
